Audit of USAID/Mexico’s Training, Use and
Accountability of Cognizant Technical Officers
(CTOs)

Audit Report No. 1-523-03-005-P

June 27, 2003




                San Salvador, El Salvador
June 27, 2003

MEMORANDUM

FOR:            USAID/Mexico Mission Director, Paul White
                Regional Contracting Officer, Beth Paige

FROM:           Acting RIG/San Salvador, Christine M. Byrne

SUBJECT:        Audit of USAID/Mexico’s Training, Use and Accountability of
                Cognizant Technical Officers (Report No. 1-523-03-005-P)

This memorandum is our report on the subject audit.

Your comments on the draft report were considered in preparing this report. They
are included for your reference in Appendix II.

This report contains two recommendations for your action.         Regarding
Recommendation No. 1 a management decision has been reached, but final action
is pending. The Office of Management Planning and Innovation will make a
determination of final action after the recommendation has been implemented.
Regarding Recommendation No. 2, final action has been taken.

Once again, thank you for the cooperation and courtesy extended to my staff during
the audit.




                                                                                1
(This page intentionally left blank)




                                       2
Table of   Summary of Results                                                           5
Contents
           Background                                                                   5

           Audit Objectives                                                             6

           Audit Findings                                                               6

                  Did USAID/Mexico provide adequate guidance and training to its
                  cognizant technical officers to ensure that they were aware of and
                  capable of performing their responsibilities?                         6

                            Some Cognizant Technical Officers Need More Training       8

                  Did USAID/Mexico hold its cognizant technical officers
                  accountable for performing their responsibilities in accordance
                  with USAID policies and regulations?                                  9

                            USAID/Mexico Lacked Formal Annual Performance
                            Evaluations of Some Cognizant Technical Officers           10

           Management Comments and Our Evaluation                                      12

           Appendix I – Scope and Methodology                                          13

           Appendix II – Management Comments                                           15




                                                                                            3
(This page intentionally left blank)




                                       4
 Summary      The Regional Inspector General/San Salvador conducted an audit to determine if
 of Results   USAID/Mexico provided adequate guidance and training to its cognizant technical
              officers (CTOs) and whether the mission held them accountable for performing their
              responsibilities (page 6).

              USAID/Mexico provided adequate guidance and substantial training to its
              cognizant technical officers to ensure that they were aware of and capable of
              performing their responsibilities; however, some CTOs have not completed their
              training (page 6).

              USAID/Mexico held its CTOs accountable for performing their responsibilities in
              accordance with USAID policies and regulations, except for not performing
              formal annual evaluations for some U.S. personal services contractors (page 9).

              We are making two recommendations to address the items discussed in this
              report. First, we recommend that current CTOs complete the training series
              (page 9). Second, we recommend that the mission establish a policy to conduct
              annual evaluations of all CTO staff (page 12).

              USAID/Mexico agreed with the recommendations in this report, made a
              management decision on Recommendation No. 1, and implemented final action
              on Recommendation No. 2 (page 12).



Background    Many people participate in USAID’s acquisition and assistance (A&A) process to
              procure goods and services. To ensure that USAID implements this process
              efficiently and effectively, these professionals (whether direct hire employees or
              personal services contractors) need to be aware of and held accountable for
              performing numerous A&A responsibilities.

              While contracting officers and assistance officers may be the most visible
              members of a successful A&A workforce, USAID’s many cognizant technical
              officers (CTOs) also have a critical role. The term cognizant technical officer is
              used by USAID in lieu of the other U.S. government terms such as contracting
              officer’s technical representative or contracting officer’s representative and
              denotes that CTOs can be responsible for grants as well as contracts. The purpose
              of CTOs is to act as contracting officers’ technical representatives on contracts,
              grants and cooperative agreements to ensure that awardees are accomplishing
              desired objectives in accordance with U.S. Government and USAID laws, policies
              and procedures.

              Contracting officers designate members of strategic objective teams to perform
              administrative actions and to provide technical advice on acquisition and
              assistance awards. Generally, the technical office responsible for the activity


                                                                                              5
                 nominates an individual to serve as the CTO, and the contracting officer usually
                 accepts the nomination.

                 CTOs may perform duties such as drafting scopes of work for proposed awards,
                 developing independent government cost estimates, and handling a variety of
                 post-award administrative actions such as monitoring performance and reviewing
                 vouchers.

                 The audit encompassed ten USAID/Mexico CTOs as of March 31, 2003.



Audit            The Regional Inspector General/San Salvador included an audit in its fiscal year
Objectives       2003 audit plan to answer the following questions:

                    1. Did USAID/Mexico provide adequate guidance and training to its
                       cognizant technical officers to ensure that they were aware of and capable
                       of performing their responsibilities?

                    2. Did USAID/Mexico hold its cognizant technical officers accountable for
                       performing their responsibilities in accordance with USAID policies and
                       regulations?

                 Appendix I describes the audit's scope and methodology.


Audit Findings   Did USAID/Mexico provide adequate guidance and training to its cognizant
                 technical officers to ensure that they were aware of and capable of
                 performing their responsibilities?

                 USAID/Mexico provided adequate guidance and substantial training to its
                 cognizant technical officers (CTOs) to ensure that they were aware of and capable
                 of performing their responsibilities; however, some of them have not completed
                 their training.

                 For the purposes of this audit, we considered adequate guidance to be the creation
                 of an environment where employees were informed of their training options,
                 where management facilitated training, and where employees had access to
                 resources to help solve their problems. We considered adequate training to mean
                 that employees completed the required training to be certified as a cognizant
                 technical officer within one year of being named as a CTO. Guidance and
                 training are discussed in turn in the sections that follow.

                 The mission provided guidance to ensure that CTOs were aware of and capable of
                 performing their responsibilities by creating an environment where CTO training
                 was valued, by implementing a system to identify training requirements, and by


                                                                                                 6
providing interaction with supervisory and contracting officer staff to facilitate
receiving guidance.

USAID/Mexico implemented a system to identify CTO training requirements.
Mission Order 495-2, dated July 9, 2001, identified the mission director as
responsible for providing training to improve the efficiency and effectiveness of
mission programs. The order further stated that the Mission Training Committee
was responsible for establishing training objectives, planning and budgeting and
approving individual training requests. Although not specific to CTO training,
this order encompassed CTO training.

The mission’s training requirements identification process included obtaining
input from staff about their training needs each year, prioritizing the scheduling of
courses and providing funding. The mission’s commitment to CTO training was
manifest in the approximately $74,000 that had been spent during the past two
years for CTO courses for current staff. The mission planned to spend another
$40,000 before the end of fiscal year 2003. A final, notable fact about the
mission’s training planning was that it went beyond current CTOs. Courses were
also planned for staff who assist CTOs and for staff who might someday be
CTOs.

In addition to training, USAID/Mexico provided support to its CTOs in other
ways. Relative to other missions in the Latin America and Caribbean Region,
USAID/Mexico is a small mission in terms of personnel. This benefited the
mission when it came to supporting CTOs. CTO staff worked in close proximity
to each other and to their assigned supervisors. Interviews with CTO supervisors
indicated that they emphasized training and provided day-to-day guidance as two
of their primary supervisory responsibilities. In addition, the regional contracting
officer and her staff, although not physically located in Mexico, provided their
expertise through routine visits, telephone, and email communication.

Interviews with CTOs indicated that they knew about resources and tools to use to
research their responsibilities. For example, 90 percent of the CTOs interviewed
indicated that their primary tool to assist them in their activities is the Automated
Directives System. Other tools that CTOs identified to help guide them in their
activities included the Federal Acquisition Regulations, Code of Federal
Regulations, Contract Information Bulletins, and A&A classroom materials.

Managers of organizations that received USAID/Mexico funds indicated that
CTOs were capable in performing their duties. We conducted telephone
interviews with 15 recipients representing non-governmental organizations, local
Mexican government agencies, other U.S. government agencies, and international
organizations. All of the respondents indicated that the CTOs properly acted
within their limits of authority and that they understood their major roles.




                                                                                   7
Although the mission created an environment that promoted CTO training, CTOs
did not necessarily complete their required training series.

Some Cognizant Technical
Officers Need More Training

At the time of this audit, USAID was in the process of restructuring the courses it
provides to certify employees as CTOs. Under USAID’s new plan, designated
CTOs will be expected to take the required courses for CTO certification within
one year of being designated as a CTO. This new policy was developed to also
comply with Office of Federal Procurement Policy directive No. 97-01, which
mandates all federal agencies to prepare and train employees who are responsible
for managing contracts. Even though the one year time limit did not exist at the
time of the audit, we considered it to be a reasonable standard.

The mission’s commitment to CTO training was evidenced in the amount of
training mission employees have taken. The current ten CTOs have taken 20
courses amongst themselves and other current mission employees have taken a
total of ten courses. On an individual basis, the training coverage could be
improved. Although 8 of the 10 current CTOs had taken at least one course,
USAID/Mexico did not ensure that its current CTOs completed all classes needed
to be certified within one year of being designated. Review of mission records
showed that 4 of 10 CTOs needed to complete at least one course in the series.
Review of CTO designation letters indicated that those four employees received
their first designations on currently active agreements in September 1998,
September 2000, June 2001, and November 2001.

Various factors kept CTOs from completing courses. USAID/Mexico, as
mentioned, has been a relatively small mission. Notwithstanding, the program
has been experiencing significant growth in its portfolio over the past few years.
Coordinating resources to cover program activities while attending training has
posed difficulties. In the past, there were four courses in the CTO training series,
and attending the entire series required CTOs to take four separate trips.

Interview responses from the CTOs, the regional legal advisor, and the regional
contracting officer supported the conclusion that CTOs were generally aware of
and capable of performing their responsibilities, though given the breadth of
knowledge needed to administer USAID’s sometimes complex instruments,
training opportunities existed. Without receiving the training required to be
certified, CTOs may not be aware of the proper actions to take in performing their
duties.

       Recommendation No. 1: We recommend that USAID/Mexico
       ensure that its cognizant technical officers who had not
       finished their cognizant technical officer training as of March
       31, 2003 obtain that training.


                                                                                  8
Did USAID/Mexico hold its cognizant technical officers accountable for
performing their responsibilities in accordance with USAID policies and
regulations?

USAID/Mexico held its CTOs accountable for performing their responsibilities in
accordance with USAID policies and regulations, except for not performing
formal annual evaluations.

USAID/Mexico held its CTOs accountable by developing work objectives,
statements of work, and designation letters for their CTOs, all of which included
their general CTO responsibilities. Although the mission did not have a standard
set of CTO responsibilities, some of the CTO tasks included:

   •   Monitoring on-going project activities and providing required assistance.

   •   Developing strategies and priorities.

   •   Developing working relationships with host country institutions and
       personnel.

   •   Maintaining records of accrued expenditures.

   •   Devising and overseeing systems to account for the use of funds.

   •   Providing technical and advisory guidance.

   •   Ensuring that Congressional Notifications, MAARDs (Modified
       Acquisition and Assistance Request Documents), accrual reports,
       contractor technical-financial performance reports, and vouchers were
       processed.

   •   Preparing and maintaining program budgets.

   •   Participating in meetings with counterparts.

   •   Ensuring cost effective allocation and management of resources.

   •   Providing approval for payment of vouchers.

CTO supervisors indicated that they held their CTOs accountable through
frequent and daily interaction to ensure that they were performing their
responsibilities. Supervisors held frequent meetings with their CTOs to discuss
their activities and to ensure compliance with USAID rules and regulations. The



                                                                                   9
mission director also emphasized accountability through bi-weekly strategic
objective team meetings.

Through these mechanisms, USAID/Mexico has been successful in
communicating to CTOs that their CTO duties are an important part of their
performance. However, the mission has been growing, and more formal
mechanisms to ensure accountability may be needed.

USAID/Mexico Lacked Formal Annual Performance
Evaluations of Some Cognizant Technical Officers

USAID/Mexico did not perform formal annual performance reviews to evaluate
its U.S. personal services contractors acting as CTOs. USAID procurement
policy requires U.S. personal services contractors to perform satisfactorily in
order to qualify for annual salary increases (USAID Acquisition Regulations
Appendix D). Although the policy does not specify the content of the evaluation,
we believe that providing a formal, annual performance review would be
appropriate to promote accountability. At USAID/Mexico, formal assessments
were not performed because they were not required by USAID policy. As a
result, performance of specific CTO duties may not have been considered.

USAID’s employee evaluation program, according to the Automated Directives
System, is intended to provide a systematic process to involve its employees in
improving organizational effectiveness to accomplish USAID’s mission and
goals. The program includes establishing mutually agreed-upon work objectives
at the start of the rating period and an assessment of how well the employee met
those objectives at the end of the rating period. The program also includes input
from sources apart from the employee’s immediate supervisor, commonly
referred to as “360 input.” By policy, the program applies only to U.S. direct hire
employees. However, the same benefits that can be obtained by evaluating U.S.
direct hire employees would be realized by evaluating all mission personnel using
similar standards.

Five of USAID/Mexico’s ten CTOs were U.S. personal services contractors.
These five were subject to annual evaluations indicating only satisfactory or
unsatisfactory performance as personal services contractors. Beyond that, USAID
policy is relatively silent on the nature and the extent of evaluations. At most,
USAID acquisition regulations require reviews on an annual basis to qualify for a
salary increase for satisfactory performance. However, the regulations do not
provide guidance on conducting annual evaluations.

In the absence of specific guidance for conducting U.S. personal services
contractor evaluations, the five U.S. personal services contract CTOs received
different evaluations. Two contractors did not receive evaluations because they
were already at the top of their salary ranges and ineligible for salary increases.
One was hired less than a year ago and would not have been due for an


                                                                                10
evaluation. The two remaining CTOs received general evaluation memos
indicating satisfactory performance. Annual performance work objectives were
not set for U.S. personal services contractors, and their evaluation memos did not
include a detailed review of whether or how well the employee performed CTO
responsibilities. Likewise, their evaluation memos did not include feedback from
regional contracting office staff, which is crucial because contracting officers are
responsible for designating individuals as CTOs.

Of USAID/Mexico’s remaining five CTOs who were not U.S. personal services
contractors, one was a U.S. direct hire, two were U.S. government employees
providing services to USAID under agreements with another agency, and two
were foreign service national personal services contractors. Each of these CTOs
was subject to annual evaluations in accordance with standards established in
their respective hiring mechanisms. Nevertheless, four were assigned their CTO
duties within the past year and thus would not be expected to have specific CTO
responsibilities included in their work objectives yet. The other, a foreign service
national, did not have specific work objectives related to the individual’s CTO
duties.

As mentioned previously, the mission has communicated CTO duties through
largely informal means because USAID did not have an evaluation requirement
for U.S. personal services contractors. However, lack of formal CTO evaluation
processes may have left some CTOs unclear on their accountability for CTO
actions. Our interviews indicated that, while CTOs believed that their CTO duties
were an important part of their job responsibilities, CTOs were unclear whether
their performance reviews included, or should have included, an assessment of
how well they performed their CTO responsibilities.

A detailed annual performance evaluation encompassing CTO duties would be an
effective mechanism to further establish accountability for performing CTO
responsibilities. Should CTOs not perform these responsibilities, there could be
serious consequences for their respective programs. For example, a CTO not
properly monitoring an award recipient’s activity could lead to the recipient
engaging in activities outside the scope of their agreement. A CTO not carefully
reviewing expense reimbursement vouchers could lead to recipients charging the
U.S. government for products and services outside the scope of their agreements.
Ultimately, CTOs not carrying out their responsibilities could endanger the
success of their particular program.

In light of these conditions, we make the following recommendation:

       Recommendation No. 2: We recommend that USAID/Mexico
       adopt a policy to conduct annual performance reviews of its
       cognizant technical officer staff that includes: 1) the
       establishment of work objectives which encompass their duties
       as cognizant technical officers; 2) an assessment of how well


                                                                                 11
                        they met those objectives; and 3) feedback from regional
                        contracting office staff.



Management       In responding to our draft report, USAID/Mexico presented steps being taken to
Comments and     address both recommendations. Its comments are included in their entirety in
Our Evaluation   Appendix II.

                 Regarding Recommendation No. 1, the mission agreed with the reported findings
                 and has developed a firm plan of action to address the recommendation.
                 Consequently, a management decision has been made.

                 Regarding Recommendation No. 2, the mission agreed with the reported finding
                 and has created a policy and designed a system for conducting annual
                 performance reviews of its U.S. personal services contractors and has committed
                 to incorporate cognizant technical officer work objectives in foreign service
                 national and U.S. direct hire performance evaluations. Therefore, final action has
                 been taken.




                                                                                                12
                                                                                     Appendix I


Scope and     Scope
Methodology
              We audited the training, use and accountability of cognizant technical officers
              (CTOs) at USAID/Mexico in accordance with generally accepted government
              auditing standards.

              We planned to conduct the audit at the offices of USAID/Mexico, but because of
              travel restrictions in place related to the war in Iraq, we conducted our interviews
              with CTOs, supervisors, recipients, and mission officials by telephone from
              USAID/El Salvador. We also conducted interviews with the regional legal
              advisor and the regional contracting officer based at USAID/El Salvador. We
              requested and received relevant documentation from USAID/Mexico by
              electronic mail and fax. We do not believe that our inability to travel had a
              significant impact on achieving our audit objectives.

              Criteria for defining roles and responsibilities included Office of Federal
              Procurement Policy Letters, USAID Automated Directives System, Contract
              Information Bulletins, and Acquisition Regulations. We also reviewed CTO
              designation letters, contract statements of work, work objectives and position
              descriptions. Criteria for holding CTOs accountable, in addition to those
              described above, included the Foreign Affairs Manual and Handbook. Criteria for
              defining essential CTO training requirements included not only those regulations
              described above, but also the Clinger Cohen Act and Federal Acquisition Institute
              Training Material.

              In conducting our audit, we assessed the effectiveness of USAID/Mexico’s
              management controls with respect to training CTOs and holding them
              accountable. We identified management controls as: 1) the identification of the
              tasks CTOs were to perform; 2) the identification of training needed by CTOs; 3)
              the provision of training to CTOs; 4) the establishment of work objectives and
              performance measures for CTOs, and; 5) the evaluation of CTO performance.
              The audit as a whole was essentially an assessment of such management controls.

              We conducted our audit from March 31 through April 25, 2003. Our audit scope
              included ten individuals who were performing CTO duties at USAID/Mexico as
              of March 31, 2003. As of that date, mission records indicated that the total
              amount committed from agreements on which individuals had been assigned CTO
              duties was approximately $17.5 million. This amount does not include the
              mission’s tuberculosis program, for which a Strategic Objective Grant Agreement
              for $16 million had been signed with the Government of Mexico. Since there had
              not been any major activity on this project as of March 31, 2003, we did not
              include it within the scope of our audit. We also excluded CTOs on HIV/AIDS
              projects to which USAID/Mexico staff lent field support, but did not perform
              CTO duties. USAID/Washington arranged and signed the mission’s HIV/AIDS
              agreements, and the assigned CTOs were based in Washington.


                                                                                               13
                                                                      Appendix I


Methodology

To answer the audit objectives, we conducted interviews and surveys of CTOs,
CTO supervisors, contracting staff, regional legal advisor staff, grant recipients,
and other mission officials. We also reviewed pertinent documentation such as
CTO designation letters, position descriptions, work plans, contract statements of
work, work objectives, and annual evaluations.

The first audit objective addressed whether USAID/Mexico provided adequate
guidance and training to its CTOs. To answer this objective, we defined the
following criteria that USAID/Mexico had to meet:

   1. CTOs understood their responsibilities.

   2. CTOs received the appropriate certification training.

For an unqualified (positive) opinion, results of our audit procedures had to
indicate that at least 90 percent of CTOs met both criteria defined above. A
qualified opinion would result if only one criterion had been met. A negative
opinion would result if neither criterion had been met.

The second audit objective addressed whether USAID/Mexico held its CTOs
accountable for performing their CTO responsibilities. To answer this objective,
we defined the following criteria that USAID/Mexico had to meet:

   1. CTO supervisors identified specific CTO responsibilities in the
      employee’s designation letter, position description, and/or contract
      statement of work.

   2. CTO supervisors evaluated performance of CTO responsibilities in the
      employee’s annual performance review.

For an unqualified (positive) opinion, results of our audit procedures had to
indicate that at least 90 percent of CTOs met both criteria defined above. A
qualified opinion would result if only one criterion had been met. A negative
opinion would result if neither criterion had been met.




                                                                                14
                                                                                          Appendix II


Management
Comments
                                                                      13 June 2003


    MEMORANDUM
    UNCLASSIFIED

    TO:            Timothy E. Cox
                   Regional Inspector General/San Salvador

    FROM:          John Beed
                   Acting Mission Director, USAID/Mexico

    SUBJECT:       Audit of USAID/Mexico’s Training, Use and Accountability of Cognizant
                   Technical Officers (CTOs), Audit Report No. 1-XXX-03-00X-P


    Mission Management has reviewed subject draft audit.

    USAID/Mexico has aggressively enrolled Cognizant Technical Officers (CTOs) in cognizant
    officer training courses since their initiation. Given the Mission's size and resources, it was
    impractical for CTOs to take four one-week courses within one year. Furthermore, many of
    these courses were often full. However, since the CTO courses recently were streamlined to two
    one-week courses, the mission intends to complete CTO certification for current CTOs, per the
    audit recommendation, within one year, barring unusual circumstances. Already, the Mission has
    scheduled additional staff participation in a number of CTO courses before fiscal year-end.

    The Mission established a formal evaluation system on May 15, 2003, for U.S. Personal Service
    Contractors which incorporates the evaluation of CTO responsibilities, per the audit's second
    recommendation. In addition, the Mission will continue to incorporate CTO applicable work
    objectives in the FSN and U.S. Direct Hire annual evaluation process and solicit feedback from
    the regional contracting staff.

    Thank you for taking the time to conduct this audit. In particular, we appreciate your willingness
    to work so flexibly and collaboratively given the need to conduct much of it "virtually". Your
    staff was highly professional and consistently direct in dealing with the Mission.


    Please do not hesitate to contact me or my staff if you need additional information to finalize this
    report.




                                                                                                      15
